MEMORANDUM FOR ASA HUTCHINSON
               ADMINISTRATOR
               DRUG ENFORCEMENT ADMINISTRATION


FROM:                 GLENN A. FINE
                      INSPECTOR GENERAL

SUBJECT:              Review of the Drug Enforcement Administration’s
                      Investigations of the Diversion of Controlled
                      Pharmaceuticals, Report Number I-2002-010


      Attached is the final report covering our review of the Drug Enforcement
Administration’s (DEA) efforts to investigate cases of controlled pharmaceutical
diversion. We found that the DEA has dedicated only 10 percent of its field
investigator positions to diversion investigations. We also found that the DEA
has failed to provide sufficient DEA special agents to assist diversion
investigators in conducting investigations of controlled pharmaceutical
diversion. This situation has had a negative impact on the quality and
timeliness of diversion investigation cases. In addition, we found that the DEA
provides minimal intelligence support to its diversion investigators, instead of
focusing its intelligence efforts on developing and analyzing intelligence
information on illicit drug trafficking.

       The report contains four recommendations to improve the DEA’s ability
to investigate the diversion of controlled pharmaceuticals, including providing
additional intelligence support to the Office of Diversion Control to enhance its
ability to detect and investigate diversion cases.

      We sent copies of the draft report to your office on August 26, 2002 with
a request for comments. Your September 26, 2002 response addressed each of
the report’s four recommendations. We have included your response in the
report as Appendix IV.

      Our analysis of your response describes the additional information we
need to close each of the recommendations and can be found in Appendix V.
Please provide the additional information by January 17, 2003.

      We look forward to working with you and assisting the DEA in resolving
these issues. If you have any questions about this report, please feel free to
contact me or Paul A. Price, Assistant Inspector General for Evaluation and
Inspections, on (202) 616-4620.

Attachment

cc:   Marjorie Snider
      Liaison
      Drug Enforcement Administration

      Vickie L. Sloan
      Director
      Departmental Audit Liaison Office




                                       2
                                    EXECUTIVE SUMMARY


      The Office of the Inspector General, Evaluation and Inspections
Division, reviewed the Drug Enforcement Administration’s (DEA) Office of
Diversion Control (OD). Our objective was to assess the DEA’s
investigative response to the diversion of controlled pharmaceuticals.

      Diversion occurs when legally produced controlled
pharmaceuticals are illegally obtained for non-medical use. Diversion
commonly involves physicians or pharmacists selling prescriptions to
drug dealers or abusers, employees stealing from drug inventories,
individuals improperly obtaining multiple prescriptions from different
doctors, individuals forging prescriptions, or individuals robbing
pharmacies.

      According to the DEA, although the quantity of controlled
pharmaceuticals diverted is unknown, controlled pharmaceuticals
account for 30 percent of all reported deaths and injuries associated with
drug abuse.1 In addition, the DEA Administrator, in a speech to the
American Pain Society in March 2002, noted that the number of people
who abuse controlled pharmaceuticals each year approximately equals
the number who abuses cocaine – 2 to 4 percent of the U.S. population.
Further, a recent study conducted by the Department of Health and
Human Services identified controlled pharmaceuticals as factors in
25 percent of all reported overdose deaths and 20 percent of all
emergency room visits relating to drug abuse.

       Within the DEA, the OD is responsible for overseeing the
distribution system for controlled pharmaceuticals and regulated
chemicals, and for preventing the diversion of those substances. The
Controlled Substances Act of 1970 requires all businesses that
manufacture or distribute controlled pharmaceuticals; all health
professionals who dispense, administer, or prescribe controlled
pharmaceuticals; and all pharmacies that fill prescriptions to register
with the DEA. At DEA field offices throughout the United States,
diversion investigators review applications of potential registrants,




         Drug abuse is not always associated with the diversion of controlled
          1

pharmaceuticals. The data available for our analysis does not specifically identify what
percentage of the problem is attributable to diversion of controlled pharmaceuticals
versus the abuse of legally obtained prescriptions.

U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation & Inspections Division
monitor existing registrants through cyclical investigations, and
investigate allegations of diversion of controlled pharmaceuticals and
regulated chemicals.2

      Our review found that DEA’s enforcement efforts have not
adequately addressed the problem of controlled pharmaceutical
diversion. Despite the widespread problem of pharmaceutical abuse, the
DEA has dedicated only 10 percent of its field investigator positions to
diversion investigations. Since 1990, the number of diversion
investigators as a percentage of total DEA investigators has decreased by
3 percent.

      We also found the DEA has failed to provide sufficient DEA special
agents to assist diversion investigators in conducting investigations of
controlled pharmaceutical diversion. Diversion investigators lack law
enforcement authority and therefore must request either DEA special
agents or local law enforcement officers to perform essential activities
such as conducting surveillance, issuing search warrants, managing
confidential informants, and performing undercover drug purchases. We
found that difficulties in obtaining law enforcement assistance have
caused delays in developing cases for prosecution. The quality of
investigations also has suffered because of the need to use investigators
external to the diversion control program who lack experience in
conducting controlled pharmaceutical investigations, which often require
establishing the criminal intent of doctors, pharmacists, and other
medical professionals. Over the past 25 years, DEA officials have
acknowledged these problems and proposed solutions ranging from
vesting diversion investigators with criminal investigative authority to
assigning special agents to diversion units on a full-time basis. However,
the DEA still has not implemented an effective solution.

       In addition, we found that the DEA provides minimal intelligence
support to its diversion investigators, instead focusing its intelligence
efforts on developing and analyzing intelligence information on illicit drug
trafficking. The one potential intelligence resource currently available to
diversion investigators is the Automation of Reports and Consolidated
Orders System (ARCOS). However, diversion investigators stated that
ARCOS reports are limited in their value as an intelligence resource
because of problems of completeness, accuracy, and timeliness.
Diversion staff at Headquarters and in the field offices told the OIG that


         Diversion investigators are not criminal investigators. They do not have arrest
          2

authority and cannot perform law enforcement functions such as serving warrants,
conducting surveillance, managing confidential informants, and working undercover.

U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation & Inspections Division
they do not have the adequate resources to analyze and develop ARCOS
data into useful intelligence products.

      Despite limitations with ARCOS, we found that the DEA is in the
process of increasing its intelligence support to diversion investigators in
other ways. It is currently developing the Internet Online Investigations
Project, which will aid in the identification of web sites that are possibly
involved in the diversion of controlled substances. In addition, the DEA
intends to establish a diversion intelligence group by the end of fiscal
year 2002.

      While the DEA has traditionally focused the bulk of its resources
on disrupting illicit drug trafficking operations, we believe it is critical for
the DEA to devote more resources to counteract the widespread
controlled pharmaceutical diversion problem. We recommend the DEA:

          •     Increase investigative resources devoted to the controlled
                pharmaceutical diversion problem;

          •     Clarify the roles, responsibilities, and law enforcement
                authorities of diversion investigators;

          •     Ensure adequate training for DEA special agents in diversion
                investigation procedures; and

          •     Fully implement the Online Investigations Project and the
                diversion intelligence group to provide effective intelligence
                support to the OD. Also, the DEA should continue to explore
                additional intelligence capabilities to support the diversion
                investigator.




U.S. Department of Justice                                                       iii
Office of the Inspector General
Evaluation & Inspections Division
                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................... 1

          Inspection Scope and Methodology................................................. 1

BACKGROUND ....................................................................................... 3

          Diversion Control Program Organization and Staffing..................... 5
          Diversion Investigator Responsibilities ........................................... 7
          Diversion Control Program Funding ............................................... 8

RESULTS OF THE INSPECTION ............................................................ 9

          Insufficient Allocation of Investigative Resources to Controlled
          Pharmaceutical Diversion .............................................................. 10
                       Recommendation 1 ................................................... 13

          Lack of Law Enforcement Authority for Diversion Investigators....... 14
                Current DEA Policy Regarding the Role of the Diversion
                Investigator .......................................................................... 16
                Effect on the Quality of Diversion Investigations ................... 18
                Effect on the Timeliness of Diversion Investigations .............. 19
                Improving Investigative Capability ........................................ 20
                       Recommendation 2 ................................................... 22
                       Recommendation 3 ................................................... 22

          Insufficient Intelligence Support..................................................... 22
                       Recommendation 4 ................................................... 25

CONCLUSION ......................................................................................... 26

APPENDIX I: Diversion Investigator work years for all types of
investigations, 1993-2001 ....................................................................... 27
APPENDIX II: Diversion Investigator and Special Agent work years for
controlled pharmaceutical and illicit drug investigations, 1993-2001....... 28
APPENDIX III: Percentage of time spent by Diversion Investigators on
all types of investigations, 1993-2001...................................................... 29
APPENDIX IV: DEA Management Response ........................................... 30
APPENDIX V: Office of the Inspector General’s Analysis of the DEA’s
Management Response ............................................................................ 32



U.S. Department of Justice                                                                         iv
Office of the Inspector General
Evaluation & Inspections Division
                                    INTRODUCTION


      Diversion occurs when legally produced controlled
pharmaceuticals are illegally obtained for non-medical use. Diversion
commonly involves physicians or pharmacists selling prescriptions to
drug dealers or abusers, employees stealing from drug inventories,
individuals improperly obtaining multiple prescriptions from different
doctors, individuals forging prescriptions, or individuals robbing
pharmacies.

       The number of dosage units of controlled pharmaceuticals
dispensed in the United States has grown at an average annual rate of
6 percent since 1992 to a total of nearly 3 billion dosage units in 2000.
Along with this growth, non-medical use of controlled pharmaceuticals
has increased, especially narcotics, stimulants, depressants, and
anabolic steroids. Overall, according to the Drug Enforcement
Administration (DEA), the number of people who use controlled
pharmaceuticals for non-medical purposes each year approximately
equals the number who uses cocaine – 2 to 4 percent of the U.S.
population. Due to the far-reaching effect of the controlled
pharmaceutical diversion problem, it is critical for the DEA to devote
sufficient resources to investigate diversion of controlled
pharmaceuticals. It is also important for the DEA to recognize emerging
trends and patterns of controlled pharmaceutical diversion and to
respond quickly where significant problems are developing.

      The Office of the Inspector General, Evaluation and Inspections
Division, reviewed the DEA’s Office of Diversion Control (OD). Our
objective was to assess the DEA’s investigative response to the diversion
of controlled pharmaceuticals.

Inspection Scope and Methodology

      We conducted our fieldwork from August 2001 to July 2002. At
DEA headquarters, we reviewed policies and procedures and interviewed
DEA officials, including the DEA Deputy Administrator, Chief of the
Operations Division, Chief of the Intelligence Division, and Deputy
Assistant Administrator of the Office of Diversion Control, to obtain
information on the DEA’s efforts to investigate the diversion of controlled
pharmaceuticals. In addition to its investigative duties, the OD is
responsible for registering manufacturers and distributors of controlled
pharmaceuticals and regulated chemicals, conducting cyclical
investigations of manufacturers and distributors of controlled

U.S. Department of Justice                                                1
Office of the Inspector General
Evaluation & Inspections Division
pharmaceuticals and regulated chemicals, and investigating the
diversion of regulated chemicals. Our review did not examine these
latter areas of responsibility.

       To review OD investigations, we conducted site visits at DEA field
offices in Washington, D.C.; Baltimore, Maryland; Philadelphia,
Pennsylvania; and Boston, Massachusetts. While on-site, we interviewed
diversion personnel and DEA special agents, reviewed criminal diversion
case files, and obtained workload statistics. At these locations, we also
interviewed Assistant United States Attorneys (AUSAs) to obtain their
feedback on the effectiveness of diversion investigators in performing
criminal diversion investigations, the adequacy of current DEA policy for
performing diversion criminal investigations, and the quality and
timeliness of the investigative casework submitted to AUSAs by diversion
investigators.

       We obtained additional information from 11 DEA field office
diversion program managers through a telephone survey. We also
conducted interviews with five state and local police officers who conduct
investigations jointly with DEA diversion investigators. To obtain
information on drug abuse trends, we interviewed Department of Health
and Human Services (HHS) officials from the NIDA and the Substance
Abuse and Mental Health Services Administration (SAMHSA).




U.S. Department of Justice                                              2
Office of the Inspector General
Evaluation & Inspections Division
                                    BACKGROUND


        The Drug Abuse Prevention and Control Act (Act) was enacted on
October 27, 1970. The Act initiated the “war on drugs” and focused on
stemming the rising tide of illicit drug abuse and associated violence.
Title II of the Act, known as the Controlled Substances Act (CSA), gave
the Bureau of Narcotics and Dangerous Drugs (BNDD) the authority to
regulate pharmaceuticals. The BNDD developed the policies and
procedures for what was to become the OD when the DEA was
established on July 1, 1973. Today, the OD regulates the distribution
system for controlled pharmaceuticals and regulated chemicals, and is
charged with preventing the diversion of those substances.

      Over the past 30 years, controlled pharmaceutical use has
dramatically increased. From 1973 to 2002, the number of controlled
pharmaceuticals approved for sale by the Food and Drug Administration
increased from 2,036 to 15,776. In 1970, individuals spent $5.5 billion
on controlled pharmaceuticals in the United States. By 1999, this
expenditure had increased to $99.6 billion.

        With the rise in the manufacture and sale of controlled
pharmaceuticals came the inevitable abuse and diversion of these
beneficial drugs. According to the Acting Administrator of NIDA, the
incidence of non-medical use of controlled pharmaceuticals has doubled
over the last 10 years. The DEA reports that controlled pharmaceutical
abuse now accounts for 30 percent of all reported deaths and injuries
associated with drug abuse. According to the DEA, the most commonly
diverted substances are narcotics, stimulants, depressants, and anabolic
steroids. Additionally, HHS’s Drug Abuse Warning Network (DAWN)
study on overdose deaths shows controlled pharmaceuticals are factors
in 25 percent of all reported overdose deaths and 20 percent of all
emergency room visits relating to drug abuse. Further, as shown in
Chart 1 on the next page, over the past 15 years the estimated number of
first-time abusers of pain relievers, tranquilizers, stimulants, and
sedatives has increased.




U.S. Department of Justice                                                3
Office of the Inspector General
Evaluation & Inspections Division
          Chart 1. Estimated Number (in Thousands) of First-Time Non-
          Medical Users of Certain Categories of Controlled Pharmaceuticals,
          1985-1999

                                                  3500

                Non-medical users of controlled   3000
                pharmaceuticals (in thousands)
                                                  2500

                                                  2000

                                                  1500

                                                  1000

                                                  500

                                                     0
                                                     85
                                                            86
                                                                 87
                                                                      88
                                                                           89
                                                                                90
                                                                                     91
                                                                                          92
                                                                                               93
                                                                                                    94
                                                                                                         95
                                                                                                              96
                                                                                                                   97
                                                                                                                         98
                                                                                                                              99
                                                    19
                                                          19
                                                               19
                                                                    19
                                                                          19
                                                                               19
                                                                                    19
                                                                                         19
                                                                                              19
                                                                                                   19
                                                                                                        19
                                                                                                             19
                                                                                                                  19
                                                                                                                       19
                                                                                                                            19
                                                                                           Year

                                                         Pain Relievers    Tranquilizers      Stimulants     Sedatives


          Source: 1999-2000 National Household Survey on Drug Abuse, Substance
          Abuse and Mental Health Services Administration, Department of Health and
          Human Services.



      According to a September 2001 DEA report, hydrocodone products
remain the most commonly diverted category of controlled
pharmaceuticals.3 All 21 DEA domestic field division offices mentioned
this drug in their third quarter fiscal year (FY) 2001 reports as one of the
most commonly diverted controlled pharmaceuticals. Hydrocodone
diversion has been escalating over the past decade. In 1994, 7 million
dosage units were illegally diverted; this increased to 11 million in 1997.
Since 1990, the number of hydrocodone prescriptions increased by




         Hydrocodone is an opiate, used as an anti-cough agent, that is an effective
          3

analgesic for mild to moderate pain control. It is abused for its opiate-like effects. It is
commonly sold under the trade names Vicodin (the most prescribed pain reliever in the
United States), Lorcet, and Lortab.



U.S. Department of Justice                                                                                                         4
Office of the Inspector General
Evaluation & Inspections Division
300 percent, while during the same period emergency room visits
attributed to hydrocodone abuse increased by 500 percent. OxyContin
diversion has also become an increasing problem.4


Diversion Control Program Organization and Staffing

      The OD is located at DEA Headquarters in Washington, D.C. It
provides policy direction, program guidance, and support to DEA
diversion staff in the field. The OD is a subcomponent of DEA’s
Operations Division, which is one of six major organizational elements at
DEA Headquarters. DEA special agents head both the Operations
Division and the OD. According to the OD Deputy Assistant
Administrator, a proposal to elevate the OD to a division is currently
under review by DEA’s Office of Legal Counsel and the Department of
Justice (DOJ).

       The DEA field structure includes 21 domestic field division offices
headed by a Special-Agent-in-Charge (SAC) and 214 sub-offices.
Although the staff at DEA field offices are predominantly DEA special
agents, with full law enforcement authority, every field division office and
51 of the sub-offices have a diversion control unit. These units are
staffed by diversion investigators, who do not have law enforcement
authority, and are typically headed by a diversion investigator
supervisor. Diversion program managers at each of the 21 field divisions
supervise diversion control operations within their geographical area of
responsibility.




        4 OxyContin, introduced in 1995, has a time-release feature that controls pain

over an extended period of time. When abused, the drug is crushed to negate the time-
release design, thereby providing an immediate full dose of oxycodone, giving the abuser
a heroin-like high. From 1995 to 2000, OxyContin prescriptions increased by 1,800
percent to 5.8 million per year.

        Serious problems with OxyContin abuse were initially noticed in 1998 in
depressed rural eastern areas of the United States including sections of Maine,
Virginia, and Kentucky. By the early fall of 2000, OxyContin abuse rapidly increased
and spread to other areas of the country, especially in Maryland, West Virginia,
Florida and urban areas such as Philadelphia, Pennsylvania and Boston,
Massachusetts. Among other places, OxyContin has been identified as a serious
problem in Arizona, Louisiana, and Ohio.



U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation & Inspections Division
          Figure 1. Organizational Chart for Drug Enforcement Administration

                                         Department of Justice
                                    Drug Enforcement Administration

                                                    Administrator/
                                                  Deputy Administrator

            Human            Intelligence     Operations          Inspection   Operational    Financial
           Resources           Division        Division            Division     Support      Management
            Division                                                            Division      Division

                                                 Office
                                             of Diversion
                                                Control

                                            Domestic field
                                            division offices

                                          Field       Tactical
                                        sub-offices   Diversion
                                                       Squads




Source: DEA


       The DEA also has established Tactical Diversion Squads (TDS) at
selected field locations. As of July 2002, TDSs were located at field
offices in Boston, Denver, Houston, New Orleans, Seattle, and St. Louis.
The TDSs consist of a combination of federal, state, and local law
enforcement officers. The mission of these multi-agency squads is to
detect, investigate, disrupt, and refer for prosecution violators of the CSA
and similar state statutes; in short, to curtail the diversion of controlled
pharmaceuticals and regulated chemicals within a geographic area. The
TDSs currently operate under the supervision of a special agent, but
were formerly supervised by a diversion program manager.

      Diversion investigators represented 10 percent, or 523, of the
DEA’s 5,124 authorized investigator positions in FY 2001. The
authorized diversion investigator positions were assigned as follows:
55 at headquarters, 455 at domestic field offices, and the remaining 13
at overseas offices. At the end of FY 2001, actual on-board staffing
consisted of 43 diversion investigators at OD headquarters and 424
diversion investigators at DEA domestic field and overseas offices.




U.S. Department of Justice                                                                                6
Office of the Inspector General
Evaluation & Inspections Division
Diversion Investigator Responsibilities

       The CSA requires all businesses that manufacture or distribute
controlled pharmaceuticals; all health professionals who dispense,
administer, or prescribe controlled pharmaceuticals; and all pharmacies
that fill prescriptions to register with the DEA. At DEA field offices,
diversion investigators are responsible for investigating applications of
potential registrants, monitoring existing registrants through cyclical
investigations, and investigating allegations of the diversion of controlled
pharmaceuticals and regulated chemicals. According to the DEA’s Work
Hours Reporting System, during FY 2001 field diversion investigators
spent 20 percent of their time on processing registrant applications,
13 percent on cyclical investigations, 66 percent on investigations of
criminal complaints or alleged criminal activity, and 1 percent on other
activities.5

         Diversion investigators in DEA field offices review and approve
applications submitted by potential registrants. Prior to approving an
application, diversion investigators conduct a background review of the
criminal histories of the applicant, the applicant’s company, and
company employees; ensure the applicant has not had similar federal or
state licenses revoked in the past; and inspect the applicant’s security
measures to protect the controlled pharmaceuticals from theft. Once
approved, the applicant is assigned a DEA registration number and is
permitted to manufacture and/or distribute controlled pharmaceuticals.

      As part of the registrant monitoring process, diversion investigators
conduct investigations of registrants every five years to ensure they are
complying with federal law and regulations. For example, during a
review of a drug manufacturer the diversion investigator ensures that the
amounts of specific controlled pharmaceuticals produced are within the
DEA’s prescribed limits and that the manufacturer is complying with
regulatory requirements relating to physical security, records
accountability, and adherence to CSA standards. Violations of
regulations may result in administrative, civil, or criminal action,
depending on the severity of the infraction.

     With respect to investigations of diversion of controlled
pharmaceuticals, examples of DEA cases include:

          Of the 66 percent, 48 percent of the investigative time related to controlled
          5

pharmaceuticals and 18 percent related to regulated chemicals. See Appendix 1 for a
detailed breakout of the number of diversion investigator work years spent on each
activity.



U.S. Department of Justice                                                                7
Office of the Inspector General
Evaluation & Inspections Division
          •     Physicians who sell prescriptions to drug dealers or abusers;

          •     Pharmacists who falsify records and improperly sell the drugs;

          •     Employees of manufacturers, distributors, and pharmacies who
                steal from drug inventories;

          •     Individuals who forge prescriptions;

          •     Individuals who rob pharmacies and drug distributors;

          •     Individuals who routinely visit multiple doctors with the same
                ailment in order to obtain multiple prescriptions for controlled
                pharmaceuticals; and

          •     Criminal organizations that divert and sell controlled
                pharmaceuticals.

       Diversion investigators learn of possible diversion of controlled
pharmaceuticals through information received from the public, local
police, or DEA informants. Because diversion investigators do not have
arrest authority or carry weapons, they must rely on the assistance of
DEA special agents or other law enforcement officers, such as state or
local police, to assist them in their investigations.

Diversion Control Program Funding

       Public Law 102-395 required that effective October 1, 1993, the
DEA collect fees (both initial and renewal fees) to ensure the recovery of
the full costs of operating the OD. The legislation required that
registration fees collected by the DEA be deposited into a Diversion
Control Fee Account within the general fund of the U.S. Treasury. At
least quarterly, the U.S. Treasury is required to provide funds from this
account to reimburse the DEA for expenses involving controlled
pharmaceutical diversion operations.

       The registrant fees collected by the DEA support only the
registering, monitoring, and investigating activities associated with
controlled pharmaceuticals. The other function of the OD – registering,
monitoring, and investigating activities associated with regulated
chemicals – is funded by direct appropriations. In FY 2001, the DEA
expended approximately $65.7 million out of its registrant fee account for


U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation & Inspections Division
controlled pharmaceutical diversion operations. During this same
period, the DEA was appropriated $16.1 million to fund its regulated
chemical diversion operations.




U.S. Department of Justice                                             9
Office of the Inspector General
Evaluation & Inspections Division
                                    RESULTS OF THE INSPECTION


INSUFFICIENT ALLOCATION OF INVESTIGATIVE RESOURCES TO
CONTROLLED PHARMACEUTICAL DIVERSION

          Despite    the   widespread   problem     of    controlled
          pharmaceutical diversion and abuse, the DEA has been
          slow to commit sufficient resources to address the
          problem. The DEA continues to devote a significantly
          lower percentage of its criminal investigation resources
          to criminal investigations of controlled pharmaceutical
          diversion than to criminal investigations of illicit drugs,
          such as cocaine, heroin, and methamphetamines.


      Various studies have documented the prevalence of non-medical
use of controlled pharmaceuticals. For example:

          •     The National Household Survey on Drug Abuse (NHSDA),
                conducted by the SAMHSA in 2000 identified 13.1 million
                people, aged 12 and older, who had abused drugs other than
                marijuana in the past year. These drugs included controlled
                pharmaceuticals used non-medically and all illicit drugs such
                as heroin, cocaine, hallucinogens (e.g., LSD, PCP, and Ecstasy),
                and methamphetamine. Of the nearly 13.1 million drug users,
                over 8.8 million (67 percent) were non-medical users of
                controlled pharmaceuticals.

          •     HHS’s 1999 DAWN study on drug overdose deaths indicated
                controlled pharmaceuticals were mentioned as a factor in
                25 percent of reported deaths and 20 percent of emergency
                room visits related to drug abuse.

          •     Two reports issued by the Florida Department of Law
                Enforcement indicated that from 2000 to 2001, the number and
                percent of deaths attributable to controlled pharmaceuticals as
                compared to illicit drugs dramatically increased.6 During 2000,
                of the 773 deaths caused by drugs, 284 (37 percent) were
                caused by controlled pharmaceuticals and 489 (63 percent)

       2000 “Report of Drugs Identified in Deceased Persons by Medical Examiners”
          6

and 2001 “Report of Drugs Identified in Deceased Persons by Florida Medical
Examiners.”

U.S. Department of Justice                                                      10
Office of the Inspector General
Evaluation & Inspections Division
                were caused by illicit drugs. In 2001, of the 1,657 deaths
                caused by drugs, 943 (57 percent) were attributed to controlled
                pharmaceuticals and 714 (43 percent) were attributed to illicit
                drugs.

       Despite the widespread misuse of controlled pharmaceuticals, field
diversion investigators, whose goal is to prevent the diversion of
controlled pharmaceuticals, constitute only 10 percent of the DEA’s total
field investigator positions. The chart below shows not only that this
percentage has actually declined from a high of 13 percent in FY 1990,
but also demonstrates the significant difference in the number of DEA
diversion investigators compared to special agents over the past
12 years.


          Chart 2. Special Agent and Diversion Investigator Staffing, 1990-2001

              4000                                                                                   14%
              3500                                                                                   12%
              3000                                                                                   10%
              2500
                                                                                                     8%
              2000
                                                                                                     6%
              1500
              1000                                                                                   4%
               500                                                                                   2%
                  0                                                                                  0%
                      1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001
                                                          Year

                            Number of Diversion Investigators
                            Number of Special Agents
                            Diversion Investigators as Percentage of Total Number of Investigators

             Source: DEA



      In FY 2001, at DEA domestic field offices, diversion investigators
and DEA special agents spent approximately 187 investigator work years
on criminal investigations and complaints related to controlled
pharmaceuticals compared to over 2,229 work years on criminal
investigations related to illicit drugs (excluding marijuana), such as




U.S. Department of Justice                                                                                 11
Office of the Inspector General
Evaluation & Inspections Division
heroin, cocaine, hallucinogens, and methamphetamine.7 This means
that of the total 2,416 work years spent by DEA domestic field
investigators (including both diversion investigators and special agents)
on drug investigations (excluding marijuana), only 7.7 percent of the
total time was spent on investigations related to controlled
pharmaceuticals. In fact, as shown in Chart 3, since FY 1993
investigative resources allocated for investigations of controlled
pharmaceuticals actually decreased.


Chart 3. Work Years Spent on Illicit Drugs and Controlled Pharmaceuticals

                                    2500


                                    2000


                                    1500
                      Work Years

                                    1000


                                     500


                                           0
                                               1993   1994   1995   1996   1997   1998   1999   2000   2001
         Diversion Investigator/ Special       229.4 222.4 211.8 196.8 186.7 188.9 197.4 196.4 187.4
         Agent Work Years Spent on
         Controlled Pharmaceuticals
         Special Agent Work Years Spent 2015.7 1976.0 1779.6 1686.1 1794.8 1951.9 2208.4 2290.5 2229.0
         on Illicit Drugs


   Source: DEA Work Hours Reporting System, 1993-2001.




          7Work years pertaining to criminal investigations and complaints of controlled
pharmaceuticals include time spent by both diversion investigators and special agents.
We were unable to determine actual hours spent by special agents on diversion
investigations because this is not categorized in the special agents’ time records. DEA
officials told us that a reasonable estimate would be 1 to 3 percent of the agent’s total
time. As a conservative estimate, we used 3 percent in our calculations. See
Appendix 2 for details.

U.S. Department of Justice                                                                                    12
Office of the Inspector General
Evaluation & Inspections Division
       As previously noted, the 2000 NHSDA study found that 67 percent
of the 13 million people who had used drugs other than marijuana in the
past year were abusing controlled pharmaceuticals. Yet, in FY 2001,
only 7.7 percent of DEA investigator time was spent on investigations
relating to controlled pharmaceuticals.

      In July 2002, the DEA Deputy Administrator, the OD Deputy
Assistant Administrator, and the DEA Chief of Operations, told us that
they recognized the need for additional diversion investigator positions.
The OD Deputy Assistant Administrator cited DEA’s FY 2003 budget
request for an additional 75 diversion investigator positions, a 14 percent
increase in authorized positions, as an indication of the DEA’s intent to
expand its diversion program.8 The DEA Deputy Administrator also cited
the budget request as a positive step in addressing the imbalance in DEA
resources allocated to investigations of illicit drugs versus the diversion
of controlled pharmaceuticals.9

      Recommendation 1: The DEA Administrator should increase
investigative resources devoted to the controlled pharmaceutical
diversion problem.




        The DEA is proposing to assign 40 of these positions to field offices
          8

experiencing OxyContin diversion problems.

         At the end of FY 2001, the DEA had 56 unfilled diversion investigator
          9

positions.

U.S. Department of Justice                                                       13
Office of the Inspector General
Evaluation & Inspections Division
LACK OF LAW ENFORCEMENT AUTHORITY FOR DIVERSION
INVESTIGATORS

          Diversion investigators do not have law enforcement
          authority even though they are responsible for
          investigating suspected sources of diversion and for
          initiating administrative, civil, or criminal action against
          these sources. As a result, diversion investigators are
          precluded from conducting surveillance and undercover
          work, directing and/or paying confidential informants,
          and serving arrest and search warrants. Because these
          law enforcement activities are frequently needed to build
          an effective case, diversion investigators must rely on
          assistance from DEA special agents or state and local law
          enforcement officers.         This reliance on other
          investigators has detrimentally affected the timeliness
          and quality of diversion cases.


      In the early years of the OD, the focus of diversion investigators’
work was on regulatory activities. Because the diversion of controlled
pharmaceuticals has become more widespread, diversion investigators
now spend the majority of their time on investigative activities.
According to DEA’s Work Hours Reporting System, from FY 1993
through FY 2001 diversion investigators spent from 64.8 percent to
74.5 percent of their time on controlled pharmaceutical and regulated
chemical investigations. See Appendix 3 for details.

       The DEA periodically has reassessed the role of diversion
investigators in conducting criminal investigations. According to the
DEA, it has variously considered modifying the diversion investigator’s
role from conducting only regulatory activities to full conversion to
special agents.

       For example, in January 1977 the DEA Acting Deputy
Administrator issued a memorandum clarifying DEA’s policy relating to
the duties of the diversion investigators (who were then classified as
compliance investigators). This memorandum stated that diversion
investigators were prohibited from making undercover purchases of
evidence; directing, registering, and paying informants; conducting
moving surveillance; conducting arrests; and executing search warrants.
The memorandum also directed regional managers to ensure that DEA
special agents were available to assist diversion investigators in these
activities. However, according to DEA officials we interviewed, DEA

U.S. Department of Justice                                                  14
Office of the Inspector General
Evaluation & Inspections Division
managers at some field offices independently allowed diversion
investigators to perform some surveillance, manage confidential
informants, and participate in arrests.

      The DEA considered providing diversion investigators with special
agent authority in 1991. On December 23, 1991, the DEA Administrator
issued a memorandum to the Assistant Administrator for Operational
Support directing the DEA to create a new core series for diversion
investigators to expand and enhance their responsibilities by empowering
them to “carry firearms, make arrests, handle informants, conduct
stationary and moving surveillances, and perform undercover work.” The
new series investigators would be responsible for conducting both
criminal diversion investigations and cyclical investigations. The
memorandum further stated that while current diversion investigators
could choose to remain in their existing job series, all future investigators
would be hired under the new core series.

       DEA’s Deputy Assistant Administrator for Personnel officially
notified field diversion investigators of this change of policy on
June 30, 1992. On October 2, 1992, DEA’s Deputy Assistant
Administrator for Operational Support prepared a written plan for
converting the diversion positions. The cost to complete the conversion
was estimated at $10 million. The DEA also estimated that only half of
the 412 diversion investigators on board met the eligibility requirements
for conversion to the new core series.

      In November 1993, the Deputy Assistant Administrator for
Operations sent a memorandum to the Acting Administrator requesting
that he intervene with the DOJ to facilitate the diversion investigator
conversion process. In November 1994, the Assistant Administrator for
Operations sent a memorandum to diversion investigators querying them
on their interest in converting to criminal investigators.

      In August 1995, the newly appointed DEA Administrator sent a
memorandum to diversion investigators stating that, based on
conversations he had with numerous diversion investigators, he
determined that the solution was not to convert diversion investigators to
criminal investigators, but rather to develop a definable career ladder for
diversion investigators. The Administrator said the diversion
investigators to whom he had spoken were uninterested in a full-service
law enforcement career and expressed concerns that requiring
conversion would dilute the technical expertise of the OD. As a result,
the previous plan to convert diversion investigators to law enforcement
agents was never implemented.

U.S. Department of Justice                                                15
Office of the Inspector General
Evaluation & Inspections Division
Current DEA Policy Regarding the Role of the Diversion Investigator

       In August 2001, the DEA’s Operations Division issued a policy
memorandum to DEA field offices reiterating the restrictions on the role
of diversion investigators specified in the January 1977 memorandum.
The August 2001 memorandum stated that diversion investigators were
prohibited from:

          •     Directing, registering, or paying confidential informants;

          •     Participating in routine surveillance activities; and

          •     Authorizing or controlling undercover purchases of evidence
                involving direct contact with a suspect.

       The memorandum also directed DEA field offices to assign two
special agents full time to each field diversion group to provide law
enforcement assistance. The memorandum required “duty specific
training” for each special agent assigned to diversion groups and
specified that only special agents control the circumstances and
advisability of undercover purchases. The memorandum also designated
an Assistant Special-Agent-in-Charge (ASAC) at each field office to
oversee the operational activities of the diversion control program. In
addition, a supervisory special agent, not a diversion program manager,
would supervise special agents assigned to the diversion group.

      According to the OD Deputy Assistant Administrator, this
memorandum was issued to standardize field diversion operations
nationwide. She stated that over the years some field offices had
permitted diversion investigators to perform activities ordinarily
performed by special agents such as surveillance and managing
confidential informants. She stated that she was concerned that
diversion investigators were performing activities they were not properly
trained for or authorized to perform. This led to a concern that some
investigations could be successfully challenged in court.

       The policy memorandum attempted to compensate for the
continuing restrictions on diversion investigators by providing diversion
investigators full-time access to two special agents at each field location.
The policy memorandum also tried to address a common complaint of
the diversion investigators – that the special agents assigned to diversion
cases lacked the necessary expertise – by establishing specialized
training for the special agents in diversion activities.


U.S. Department of Justice                                                    16
Office of the Inspector General
Evaluation & Inspections Division
       However, we found that although the DEA has enforced the
restrictions on its diversion investigators, it did not provide the full-time
special agents to the diversion investigators. At all four field offices we
visited, full-time special agents had not been assigned to diversion
investigations. The SACs at these locations cited a lack of manpower as
the prevailing reason for noncompliance with the directive. Additionally,
our survey of 11 diversion program managers found that only one
division was in compliance with the August 2001 policy memorandum.

      Because of the lack of special agent assistance, the difficulties that
diversion investigators historically have had in obtaining investigative
assistance continue. We found that out of necessity diversion
investigators relied more on state and local law enforcement officers than
on DEA special agents to assist them in their investigations. Based on
estimates provided by DEA field officials, DEA special agents assisted
diversion investigators, on average, in 44 percent of their criminal
diversion investigations and state or local officers assisted diversion
investigators in the other 56 percent of their cases.10

      Nine of the 11 diversion program managers we surveyed cited the
lack of law enforcement authority as the largest obstacle in conducting
criminal diversion investigations, and 8 of the 11 stated that the August
2001 policy further inhibited their ability to conduct timely and effective
investigations.

       We also found that the training requirement specified in the
August 2001 memorandum had not been implemented. According to
training staff at the DEA training academy in Quantico, Virginia, a
diversion training course for DEA special agents was never developed.

       The August 2001 policy memorandum also greatly diminished the
role of the diversion program manager. According to the memorandum,
a supervisory special agent, not the diversion program manager, would
be responsible for overseeing special agents assigned to the diversion
group. This responsibility includes developing work-plans and preparing
annual performance evaluations for both special agents and diversion
investigators. TDS management was shifted from a diversion
investigation supervisor to a supervisory special agent. According to the
OD Deputy Assistant Administrator, the purpose of shifting the


          10   Eleven diversion program managers were surveyed and provided input that we
averaged.



U.S. Department of Justice                                                           17
Office of the Inspector General
Evaluation & Inspections Division
supervisory responsibility to a supervisory special agent was to facilitate
the assignment of special agents to assist on diversion investigations.

       Nearly all of the diversion investigators we interviewed expressed
concern that the August 2001 policy diminished the effectiveness of
diversion investigations. According to one diversion program manager,
the August 2001 policy had an immediate and negative effect on
diversion investigations in his field office. The SAC in this office
interpreted the memorandum to mean diversion investigators were not to
conduct any investigations of a criminal nature. Consequently, he
issued a memorandum on September 12, 2001, directing diversion
investigators to concentrate their efforts on registration activities. The
diversion program manager stated that because the diversion
investigators were pulled off open diversion cases and the field office
lacked special agents to take over the cases, action on 20 diversion cases
was delayed.

       During an interview in July 2002, the OD Deputy Assistant
Administrator acknowledged the requirements of the memorandum had
not been fully met because the field offices did not assign and did not
train special agents to work on diversion investigations. Similarly, the
DEA Deputy Administrator also told the OIG in July 2002 that the DEA
field offices did not assign special agents to assist in diversion
investigations due to resource problems. He said that DEA field offices
often do not have enough special agents to conduct illicit drug
investigations and are reluctant to assign them to diversion cases. He
added that the DEA is still trying to decide how best to provide
investigative support for diversion investigations.

       Apart from the August 2001 policy memorandum, we found that
the DEA is beginning to address some OD personnel issues. The OD
Deputy Assistant Administrator stated the DEA has established grade
parity for diversion investigators with criminal investigators by
establishing a journeyman GS-13 level for diversion investigators. She
added that she is working with DEA’s Division of Personnel Management
to determine whether the grade level for diversion program manager
positions could be raised to GS-15.

Effect on the Quality of Diversion Investigations

      The four AUSAs we interviewed who worked with the DEA on
diversion prosecutions cited the need for investigators who are familiar
with and experienced in conducting diversion investigations. They stated
that cases involving controlled pharmaceuticals are more difficult to

U.S. Department of Justice                                               18
Office of the Inspector General
Evaluation & Inspections Division
prosecute because of the need to prove a subject’s intent to use the drug
illicitly. For example, in a case involving a doctor, prosecutors must
clearly demonstrate the doctor purposefully diverted a controlled
pharmaceutical, as opposed to making a medical misjudgment.
Therefore, they believed it is important that the investigator developing
the case possesses a comprehensive knowledge of diversion issues. They
said special agents usually lack the experience required for diversion
investigations. In contrast, the AUSAs stated diversion investigators
usually produce high quality cases for prosecution.

        We found that significant problems have occurred in cases where
diversion investigators had to rely on local or state law enforcement
officers for criminal investigative assistance. One case file we reviewed
showed that excessive delays occurred due to constant reassignment of
officers, which necessitated additional briefings and training. In
addition, the law enforcement officers’ unfamiliarity with the nuances of
conducting controlled pharmaceutical buys resulted in several buys
having to be repeated because they did not conform with diversion
program policies. According to the case file, local law enforcement
officers spent seven months preparing a search warrant. The AUSA
assigned to the case ultimately decided the undercover work performed
by the local law enforcement officers was not sufficient to establish
criminal intent and requested that a DEA special agent gather the
evidence.

Effect on the Timeliness of Diversion Investigations

      Lack of available special agents also impeded diversion
investigations by causing excessive delays. The AUSAs we spoke to cited
frequent case delays due to the need for the diversion investigator who
was developing the case to wait for assistance from DEA special agents to
perform undercover work, surveillance, or other investigative activities.
Often, special agents were unavailable or lacked diversion investigation
expertise. One AUSA stated that all of the diversion cases he was
involved with had been delayed due to the unavailability of DEA special
agents. A case we reviewed that was already delayed nine months due to
problems related to the quality of local law enforcement support was
delayed an additional four months until a DEA special agent was
available to assist in substantiating the evidence.

      State and local officials we spoke to who work with diversion
investigators agreed with the AUSAs’ assessment that the lack of DEA




U.S. Department of Justice                                             19
Office of the Inspector General
Evaluation & Inspections Division
special agent assistance delayed investigations.11 Most police officers
said they were surprised to discover the restrictions on diversion
investigators. They commended the expertise of DEA diversion
investigators and believed they should be empowered to use all routine
law enforcement investigative tools.

Improving Investigative Capability

        Because the diversion of controlled pharmaceuticals is widespread,
it is important that the DEA dedicates a sufficient number of qualified
personnel to investigating these cases. It is particularly important that
diversion investigators have appropriate investigative support. We found
that the lack of timely and effective support has hurt the effectiveness of
diversion investigations. While the DEA has considered solutions to this
problem over the years, the problem has not yet been resolved. We
believe the DEA has several options to improve the quality and timeliness
of diversion control investigations. These include:

          •     Converting all diversion investigator positions to criminal
                investigative positions;

          •     Assigning special agents, in a timely manner, to assist diversion
                investigators; or

          •     Establishing a limited number of criminal investigative
                positions within the field diversion groups and funding these
                positions out of the diversion fee account.

      Most of the diversion investigators we spoke with believed that, at
a minimum, diversion investigators need the investigative tools
authorized in the past, such as the ability to conduct stationary
surveillance and manage confidential informants. However, they believed
the most effective solution would be to create a new occupational
category exclusive to the OD that would grant diversion investigators full
law enforcement powers.

      We found divergent opinions among the SACs and ASACs during
our site visits as to whether diversion investigators should be given law


           Assessments of DEA diversion investigators and their work were provided by
          11

city police officers from Philadelphia, Pennsylvania; Boston, Massachusetts; and
Alexandria, Virginia; and by state police officers from Maryland, Massachusetts, and
Pennsylvania.



U.S. Department of Justice                                                         20
Office of the Inspector General
Evaluation & Inspections Division
enforcement authorities. Of the two SACs and two ASACs we
interviewed, two were in favor and two were not. The two individuals in
favor of the proposal stressed the benefits of having a single individual
conduct an investigation from beginning to end. The two individuals not
in favor of the proposal believed that diversion investigators should
exclusively focus on regulatory activities.

      The OD Deputy Assistant Administrator said she is preparing a
proposal with the three options referenced above, along with a fourth
option that would restrict the field diversion units solely to performing
regulatory activities. She stated that she will present the proposal to the
DEA Administrator within the next few months for a decision.

      The OD Deputy Assistant Administrator told us that conversion of
diversion investigators to full agent status has both positive and negative
aspects. On the positive side, full conversion would make the diversion
investigators more autonomous and would increase their effectiveness.
On the negative side, the OD Deputy Assistant Administrator was
concerned that the regulatory functions of the program would be
neglected in favor of criminal investigations. She also cited the costs
involved and the problem of some current diversion investigators’ ability
to meet the stricter qualification standards to be special agents. She said
that the diversion investigator positions were initially created because
special agents were not interested in performing regulatory work. She
noted that she had been approached by some diversion investigators who
indicated that they did not want to become special agents.

       The DEA Deputy Administrator acknowledged the need for
diversion investigators to have criminal investigative support in
conducting diversion investigations. During his interview with the OIG,
he reiterated the positive and negative aspects noted by the OD Deputy
Assistant Administrator of providing diversion investigators with law
enforcement authorities. He stated that although the DEA has grappled
with this issue for decades, it has been unable to come up with a
solution.

       We believe that the DEA needs to make a definitive decision on
how diversion investigators will obtain the investigative support they
need to effectively accomplish their duties and mission. We favor
establishing a limited number of criminal investigative positions,
dedicated to diversion investigations, within the field diversion groups
and funding these positions out of the diversion fee account. Since two
of the three primary functions of diversion control are regulatory, it does
not seem cost-effective to fully staff the OD with criminal investigators.

U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation & Inspections Division
      We also believe that it is important for DEA special agents to be
knowledgeable about diversion investigation procedures. This can be
accomplished by incorporating diversion investigation training into the
current DEA special agent training program.

       Recommendation 2: The DEA Administrator should clarify the
roles, responsibilities, and law enforcement authorities of diversion
investigators.

      Recommendation 3: The DEA Administrator should ensure
adequate training for DEA special agents in diversion investigation
procedures.


INSUFFICIENT INTELLIGENCE SUPPORT

          The DEA provides minimal intelligence support to
          diversion    investigators and  instead focuses    on
          developing and analyzing intelligence on illicit drug
          trafficking.


      We found that the intelligence support provided by the DEA to
diversion investigators is minimal. The Operations Planning and
Support Unit in the OD provides a twice-yearly national summary report
on drug diversion activity compiled from DEA field office reports. The
only other resource available to diversion investigators is the quarterly
reports provided by DEA’s controlled pharmaceutical tracking system,
the Automation of Reports and Consolidated Orders System (ARCOS).12

          The ARCOS reports contain information on the inventories, acquisitions, and
          12

dispositions of certain controlled pharmaceuticals, as reported quarterly by
manufacturers and distributors. These reports show transactions for broad categories
of controlled pharmaceuticals but not specific drugs. Annually, 30 million transactions
are entered into ARCOS. ARCOS details the flow of DEA controlled pharmaceuticals
from their point of manufacture through commercial distribution channels to the sale
or distribution to dispensing or retail outlets (such as pharmacies, health care
practitioners, and hospitals). ARCOS, however, only contains the transactions of the
1,100 manufacturers and distributors of the controlled pharmaceuticals that comprise
a small percentage of the 1 million total DEA registrants.

        The ARCOS reports provide information on controlled pharmaceutical purchases
by region, by company, and by category of controlled pharmaceutical. Three types of
reports are provided: the largest purchasers of controlled pharmaceuticals by state, the
top 100 manufacturers and distributors by state, and the top 13 controlled
pharmaceuticals purchased by state.



U.S. Department of Justice                                                          22
Office of the Inspector General
Evaluation & Inspections Division
       ARCOS was not intended to be an intelligence system and the
ARCOS reports are not intelligence products. Rather, they are historical,
non-analytical reports that do not identify future trends, methods of
operations, or emerging diversion enforcement problems. Further, the
ARCOS reports are not coordinated or integrated with other DEA
intelligence efforts to identify potential trends or linkages between
controlled pharmaceutical diversion and illicit drug trafficking.

       The diversion investigators we spoke to commented on the
limitations of the ARCOS reports as intelligence resources, citing the lack
of analysis, completeness, accuracy, and timeliness of the data. OD
officials told us they do not have the resources to analyze the ARCOS
data to develop intelligence products that could depict future trends,
methods of operations, or emerging diversion enforcement problems. The
diversion investigators also told us they do not have the time to fully
analyze the ARCOS reports and develop their own intelligence products.

       The diversion investigators stated the ARCOS reports can be used
only as a starting point for an investigation or as a means to help
support a criminal case. The reports can identify “spikes” or other
unusual purchasing or distribution patterns of controlled
pharmaceuticals, which may require further investigation for potential
illegal activity. However, the diversion investigators told us these
potential leads often turn into “blind alleys” because the data is
unanalyzed, inaccurate, or a logical explanation exists for what first
appears as unusual activity.

       Further, we found the process of collecting ARCOS data and
disseminating reports results in the field receiving ARCOS reports that
are four to six months old. ARCOS reports are constructed from data
received from individual registrants and it takes the registrant time to
collect the data and report it to the DEA. The data must be collated and
reviewed at DEA headquarters. If the review process detects problems
with the quality of the data, the registrant must be contacted to resolve
the issue. The data is manually entered into the ARCOS system.
Finally, the ARCOS reports are generated and distributed to the field
divisions.

        Another significant limitation of ARCOS as an intelligence tool is
the system does not track controlled pharmaceutical transactions at the
retail level. ARCOS does not track transactions between pharmacies,
doctors, and hospitals and their respective patients. Under the CSA, the
DEA only has the authority to regulate transactions of manufacturers
and wholesale distributors. This regulatory limitation creates a gap in

U.S. Department of Justice                                              23
Office of the Inspector General
Evaluation & Inspections Division
the capability of ARCOS as an effective intelligence tool since much of the
diversion of controlled pharmaceuticals occurs at the retail level.

       Despite the limitations of ARCOS as an intelligence resource, we
found that the ARCOS reports are regularly used by field diversion
investigators. The ARCOS reports can be useful in providing statistics to
build cases for prosecution. Specifically, ARCOS data is used as
evidence that a specific pharmacy is buying more of a particular type of
drug than other pharmacies in a geographic region. In addition, the
ARCOS reports are used to support routine cyclical investigations of
registrants.13 While improvements probably could be made to improve
the timeliness and accuracy of ARCOS reports, we would not suggest
that ARCOS be modified to perform an intelligence function. Rather, we
believe additional intelligence resources should be allocated to the OD.

       The DEA is in the process of increasing its intelligence support to
the field diversion investigators. The use of the Internet to market
controlled pharmaceuticals has brought a new dimension to the
diversion problem. In the past, diversion investigators conducted their
own Internet searches for suspicious controlled pharmaceutical
marketing practices. In FY 2001, the OD’s Operations Planning and
Support Unit began developing the Internet Online Investigations Project
to provide assistance to field diversion investigators in identifying
pharmacies, bulk chemical retailers, doctors, and other individuals or
businesses conducting illegal transactions via the Internet. Although
many pharmacies and chemical retailers legitimately use the Internet to
conduct business, the Internet has been used improperly to sell
controlled pharmaceuticals and regulated chemicals to individuals
lacking a valid pharmaceutical or chemical certification, and to sell
substances that are not legal in the United States.

       The DEA’s Internet Online Investigations Project involves
developing a computer program to search the Internet, using key words
or phrases to identify web sites possibly involved in the diversion of
controlled substances. Once these web sites are identified, diversion
investigators located at headquarters will manually review these web
sites for probable criminal diversion and will refer any viable leads to the
applicable diversion field office (i.e., the region in which the site
originated). The DEA anticipates this project will be implemented by the


          Since April 2001, the DEA has provided ARCOS reports on OxyContin to
          13

diversion investigators. The DEA generates these reports every six months and
distributes them to the field divisions via CD-ROM. OxyContin is the only controlled
pharmaceutical for which specific ARCOS reports are generated.

U.S. Department of Justice                                                             24
Office of the Inspector General
Evaluation & Inspections Division
end of calendar year 2002. DEA’s FY 2003 budget request includes the
addition of 25 field positions that would be responsible for managing the
leads referred to the field.

       Finally, the DEA Chief of Intelligence told us the DEA was in the
process of establishing a diversion intelligence group to provide
intelligence support to the OD. The group will consist of five or six
intelligence analysts who will produce intelligence products on specific
topics. He said he expected the diversion intelligence group to be
operational by the end of FY 2002.

       Recommendation 4: The DEA Administrator should fully
implement the Online Investigations Project and the diversion
intelligence group to provide effective intelligence support to the OD.
Also, the DEA should continue to explore additional intelligence
capabilities to support the diversion investigators.




U.S. Department of Justice                                                 25
Office of the Inspector General
Evaluation & Inspections Division
                                    CONCLUSION


       The DEA faces a number of significant challenges as it seeks to
effectively address the widespread problem of diversion of controlled
pharmaceuticals. The OIG review highlighted several of the major issues
confronting the DEA and, specifically, the Office of Diversion Control.

      Our review concluded that the DEA’s enforcement efforts to date
have not adequately addressed the problem of controlled pharmaceutical
diversion. Despite the fact that the number of people who abuse
controlled pharmaceuticals each year approximately equals the number
who abuse cocaine, the DEA has assigned only 10 percent of its field
investigator positions to diversion investigations. In fact, since 1990, the
number of diversion investigators as a percentage of total DEA
investigators has decreased by 3 percent.

       The OIG review also found that because diversion investigators
lack law enforcement authority they must rely on DEA special agents or
state and local law enforcement officers to perform essential investigative
activity. The DEA has failed to resolve this longstanding problem by
either providing sufficient special agent assistance to diversion
investigations, providing diversion investigators with law enforcement
authorities they currently lack, or some combination of these solutions.
The lack of special agent assistance has diminished the quality and
timeliness of diversion investigations.

       The OIG also found that the DEA has yet to develop specialized
training for special agents, especially those assigned to assist with
diversion investigations. Finally, we found that the DEA has not
provided diversion investigators with consistent or timely intelligence to
support their investigative efforts.

      The OIG believes that the DEA must address each of these issues
in order to more effectively investigate the illegal diversion of controlled
pharmaceuticals.




U.S. Department of Justice                                                 26
Office of the Inspector General
Evaluation & Inspections Division
APPENDIX I: DIVERSION INVESTIGATOR WORK YEARS
FOR ALL TYPES OF INVESTIGATIONS, 1993-2001




                                                       180


                                                       160


                                                       140


                                                       120
                                Number of work years




                                                       100


                                                        80


                                                        60


                                                        40


                                                        20


                                                         0
                                                             1993   1994   1995   1996   1997   1998   1999   2000   2001
      Controlled Chemical                                    18.5   11.9   11.1   13.3   12.9   23.8   31.2   56.1   46.1
      Criminal/Complaint Investigations
      Controlled Pharmaceutical         168.5 162.9 161.7 148.4 134.8 132.6 134.1 130.2 123.1
      Criminal/Complaint Investigations
      Cyclical Audits                                        39.6   36.5   37.7   35.8   33.7   26.4   26.7   24.8   33.5
      Registrant Activities                                  21.8   20.7   20.6   25.0   29.6   55.9   38.3   45.1   50.4
      Other Investigations                                   2.6    2.6    2.5    2.5    2.2    2.6    2.3    2.7    3.3



Source: DEA Work Hours Reporting System, 1993-2001.




U.S. Department of Justice                                                                                                  27
Office of the Inspector General
Evaluation & Inspections Division
APPENDIX II: DIVERSION INVESTIGATOR AND SPECIAL
AGENT WORK YEARS FOR CONTROLLED
PHARMACEUTICAL AND ILLICIT DRUG INVESTIGATIONS,
1993-2001

                   Number of Work Years Spent on Controlled Pharmaceuticals
                     Diversion
      FY           Investigators   Special Agents                TOTAL
     1993              168.5            60.9                  229.4
     1994              162.9            59.5                  222.4
     1995              161.7            50.1                  211.8
     1996              148.4            48.4                  196.8
     1997              134.8            51.9                  186.7
     1998              132.6            56.3                  188.9
     1999              134.1            63.3                  197.4
     2000              130.2            66.2                  196.4
     2001              123.1            64.2                  187.4

                             Number of Work Years Spent on Illicit Drugs
                      Diversion
      FY            Investigators     Special Agents             TOTAL
     1993                 --             2,015.7                 2,015.7
     1994                 --             1,976.0                 1,976.0
     1995                 --             1,779.6                 1,779.6
     1996                 --             1,686.1                 1,686.1
     1997                 --             1,794.8                 1,794.8
     1998                 --             1,951.9                 1,951.9
     1999                 --             2,208.4                 2,208.4
     2000                 --             2,290.5                 2,290.5
     2001                 --             2,229.0                 2,229.0


               Total Number of Work Years Spent Time Spent on Controlled
                  on Illicit Drugs and Controlled   Pharmaceuticals as
                  Pharmaceuticals by Diversion      Percentage of Total
    FY          Investigators and Special Agents Investigations Work Years
   1993                        2,245.1                     10.22%
   1994                        2,198.4                     10.12%
   1995                        1,991.3                     10.63%
   1996                        1,882.9                     10.45%
   1997                        1,981.5                      9.42%
   1998                        2,140.8                      8.82%
   1999                        2,405.8                      8.21%
   2000                        2,486.8                      7.90%
   2001                        2,416.4                      7.75%
Source:     DEA Work Hours Reporting System, 1993-2001.



U.S. Department of Justice                                                    28
Office of the Inspector General
Evaluation & Inspections Division
APPENDIX III: PERCENTAGE OF TIME SPENT BY
DIVERSION INVESTIGATORS ON ALL TYPES OF
INVESTIGATIONS, 1993-2001




                                100%


                                    90%


                                    80%


                                    70%


                                    60%

         Percentage of
                                    50%
             time

                                    40%


                                    30%


                                    20%


                                    10%


                                    0%
                                          1993   1994   1995   1996   1997   1998   1999   2000   2001
      Other Investigations                1.1%   1.1%   1.1%   1.1%   1.0%   1.1%   1.0%   1.1%   1.3%
      Registration Activities             8.7%   8.8%   8.8%   11.1% 13.9% 23.2% 16.4% 17.4% 19.7%
      Cyclical Audits                     15.8% 15.5% 16.1% 15.9% 15.8% 10.9% 11.5%        9.6% 13.1%
      Controlled Chemical/Controlled 74.5% 74.5% 74.0% 71.9% 69.3% 64.8% 71.1% 72.0% 66.0%
      Pharmaceutical Investigations




Source: DEA Work Hours Reporting System, 1993-2001.



U.S. Department of Justice                                                                               29
Office of the Inspector General
Evaluation & Inspections Division
APPENDIX IV: DEA MANAGEMENT RESPONSE




U.S. Department of Justice             30
Office of the Inspector General
Evaluation & Inspections Division
U.S. Department of Justice          31
Office of the Inspector General
Evaluation & Inspections Division
APPENDIX V: OFFICE OF THE INSPECTOR GENERAL’S
ANALYSIS OF THE DEA MANAGEMENT RESPONSE


      On August 26, 2002, the Evaluation and Inspections Division sent
copies of the draft report to the Administrator, Drug Enforcement
Administration (DEA) with a request for written comments. The Chief
Inspector responded by memorandum dated September 26, 2002
(Appendix IV). The DEA concurred with all four of our recommendations.
Our analysis of the DEA’s response follows.

Recommendations

       Recommendation 1 – Resolved – Open. The DEA statement that
it has requested an increase of 75 diversion investigator positions and
$24.616 million for the diversion program for FY 2003 and an additional
22 diversion investigator positions in the FY 2004 budget is responsive to
this recommendation. Please provide us with a status update of your
FY 2003 and FY 2004 budget requests and progress on hiring new
diversion investigators by January 17, 2003.

      Recommendation 2 – Resolved – Open. The DEA’s plan to
submit a decision paper regarding the roles, responsibilities and law
enforcement authorities of diversion investigators through the Special
Agent in Charge (SAC) Advisory Committee to the Administrator is
responsive to this recommendation. Please provide us with a copy of the
decision paper and the Administrator’s decision by January 17, 2003.

       Recommendation 3 – Resolved – Open. The DEA statement that
it is currently providing a two-hour block of diversion training to special
agents during Basic Agent Training (BAT) and is assessing the need to
provide additional training through a special course or via the Internet is
responsive to this recommendation. We want to ensure that special
agents assigned to diversion investigations are knowledgeable of current
diversion investigation issues and techniques. We strongly suggest that
the DEA include a “mini-course” for special agents assigned to diversion
investigations as part of the additional diversion training the DEA is
considering. Please provide us with a copy of the curriculum of the
training provided during BAT and the results of the assessment to
provide additional diversion training by January 17, 2003.




U.S. Department of Justice                                              32
Office of the Inspector General
Evaluation & Inspections Division
       Recommendation 4 – Resolved – Open. The DEA’s statement
that it is continuing to develop its Online Investigations Project, and it
will provide the OD intelligence support through the new strategic and
investigative units is responsive to this recommendation. Our
recommendation was for the DEA to provide a separate intelligence
support unit dedicated to the OD. We want to ensure that the OD
intelligence support requirements are met and are not automatically
relegated to a lower priority by other intelligence support requirements.
The new strategic and investigative units must have policies and
procedures that clearly delineate how the intelligence support
requirements for the OD will be prioritized and fulfilled. Please provide
us with a status update on the development of the Online Investigations
Project and a copy of the policies and procedures for the new strategic
and investigative units which describe how the OD’s intelligence
requirements will be prioritized and fulfilled by January 17, 2003.




U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation & Inspections Division
